Department of Health and Human Services
                  OFFICE OF 

             INSPECTOR GENERAL 





    THE UNIVERSITY OF 

WISCONSIN–MADISON CLAIMED 

ALLOWABLE EQUIPMENT COSTS 

UNDER NATIONAL INSTITUTES 

    OF HEALTH GRANTS




 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov. 
                                         




                                                   Sheri L. Fulcher

                                              Regional Inspector General 


                                                       April 2013

                                                     A-05-12-00076 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                          INTRODUCTION 


 The University of Wisconsin claimed $6,597,237 in allowable equipment costs under the
 terms of its NIH grants and complied with all applicable Federal regulations.

WHY WE DID THIS REVIEW

During a prior audit of the University of Wisconsin–Madison we found that the University
claimed Federal reimbursement for equipment costs exceeding $25,000 that were significantly
rebudgeted and did not receive prior approval from the National Institutes of Health (NIH). As a
result of that audit, University of Wisconsin–Madison Claimed Allowable Costs Under Recovery
Act Grants (A-05-11-00102, Issued September 27, 2012), we conducted an audit of equipment
purchases exceeding $25,000.

OBJECTIVE

The objective of this review was to determine whether equipment purchases exceeding $25,000
funded through NIH grants were allowable under the terms and conditions of the grants and
applicable Federal regulations.

BACKGROUND

The NIH is the steward of medical and behavioral research for the nation. Its mission is science
in pursuit of fundamental knowledge about the nature and behavior of living systems and the
application of that knowledge to extend healthy life and reduce the burdens of illness and
disability. Research supported through the issuance of grants and cooperative agreements enable
NIH to fulfill its mission to make medical discoveries that improve health and save lives.

NIH grants and cooperative agreements are awarded as discretionary grants. NIH has the
authority to determine the recipient of the grant and/or cooperative agreement and the amount
awarded. NIH programs are legislatively authorized by Congress, which also defines the
purpose and policy, authorization of appropriations, allotment of funds, limitation on assistance,
and other things, for the programs. Furthermore, each Institute and Center establishes specific
goals for the unit, grant programs, and activities.

The University of Wisconsin–Madison (the grantee), founded in 1848, is Wisconsin’s
comprehensive teaching and research university with a statewide, national, and international
mission. The grantee made 44 equipment purchases, exceeding $25,000, with NIH funds in the
amount of $6,597,237. The purchase period was January 1, 2011, through December 31, 2011.

HOW WE CONDUCTED THIS REVIEW

We limited our review to 44 pieces of equipment exceeding $25,000 in cost that were purchased
with NIH grant funds during the period January 1, 2011, through December 31, 2011. The
grantee claimed $6,597,237 for the 44 pieces of equipment. We did not perform an overall
assessment of the grantee’s internal control structure. Rather, we limited our evaluation of the


The University of Wisconsin–Madison Claimed Allowable Equipment Costs (A-05-12-00076)           1
grantee’s procurement process to obtaining an understanding of internal control as it relates to the
specific objective and scope of the audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology. Appendix B contains details on
the Federal requirements related to NIH grantees.

We conducted field work at the grantee’s administrative office in Madison, Wisconsin during
August and October 2012.

                                      RESULTS OF REVIEW

The $6,597,237 in costs covered by our review were allowable under the terms of the grants and
applicable Federal regulations. Accordingly, this report contains no recommendations.




The University of Wisconsin–Madison Claimed Allowable Equipment Costs (A-05-12-00076)            2
                        APPENDIX A: SCOPE AND METHODOLOGY 


SCOPE 


We limited our review to 44 pieces of equipment exceeding $25,000 in cost that were purchased
with NIH grant funds during the period January 1, 2011, through December 31, 2011. The
grantee claimed $6,597,237 for the 44 pieces of equipment. We did not perform an overall
assessment of the grantee’s internal control structure. Rather, we limited our evaluation of the
grantee’s procurement process to obtaining an understanding of internal control as it relates to the
specific objective and scope of the audit.

We conducted field work at the grantee’s administrative office in Madison, Wisconsin during
August and October 2012.

METHODOLOGY

To accomplish our objective, we:

    	 reviewed applicable Federal laws, regulations, and program guidance;

    	 requested a listing of equipment purchases for all NIH grants for the audit period;

    	 summarized equipment purchases that exceeded $25,000;

    	 interviewed grantee officials;

    	 determined if the purchase of any particular unit of equipment was split across different
       grants;

    	 determined whether duplicate purchases of equipment were improperly charged to the
       same grant or different grants;

    	 held discussions with university staff to determine whether equipment costs were 

       reasonable; 


    	 determined whether equipment was placed in the inventory records and noted as being
       purchased with Federal funds; and

    	 determined if prior approval was sought from NIH for equipment purchases in excess of
       $25,000 if the equipment was not included in the approved grant award budget.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


The University of Wisconsin–Madison Claimed Allowable Equipment Costs (A-05-12-00076)            3
      APPENDIX B: FEDERAL REQUIREMENTS FOR NATIONAL INSTITUTES 

                         OF HEALTH GRANTEES


Federal Regulations and National Institutes of Health Policies

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (Office of Management and
Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by
45 CFR § 74.27.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (NIH Grants Policy Statement). The Grants Policy Statement provides NIH grantees,
in a single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.




The University of Wisconsin–Madison Claimed Allowable Equipment Costs (A-05-12-00076)             4
